Audit
Report
  ACCOUNTING ENTRIES AND DATA PROCESSING FOR THE
   FY 1999 DEPARTMENT OF THE NAVY GENERAL FUND
               FINANCIAL STATEMENTS


Report No. D-2000-137                          June 1, 2000



             Office of the Inspector General
                 Department of Defense
  Additional Copies

  To obtain additional copies of this audit report, contact the Secondary Reports
  Distribution Unit of the Audit Followup and Technical Support Directorate at
  (703) 604-8937 (DSN 664-8937) or fax (703) 604-8932 or visit the Inspector
  General, DoD, Home Page at: www.dodig.osd.mil.

  Suggestions for Future Audits

  To suggest ideas for or to request future audits, contact the Audit Followup and
  Technical Support Directorate at (703) 604-8940 (DSN 664-8940) or
  fax (703) 604-8932. Ideas and requests can also be mailed to:

                    OAIG-AUD (ATTN: AFTS Audit Suggestions)
                     Inspector General, Department of Defense
                        400 Army Navy Drive (Room 801)
                            Arlington, VA 22202-2884

  Defense Hotline

  To report fraud, waste, or abuse, contact the Defense Hotline by calling
  (800) 424-9098; by sending an electronic message to Hotline@dodig.osd.mil; or
  by writing to the Defense Hotline, The Pentagon, Washington, D.C. 20301-1900.
  The identity of each writer and caller is fully protected.




Acronyms
DFAS                  Defense Finance and Accounting Service
STARS-FDR             Standard Accounting and Reporting System – Financial and
                         Departmental Reporting
                        Office of the Inspector General, DoD
Report No. D2000-137                                                       June 1, 2000
  (Project No. D2000FC-0046.001)
  (formerly Project No. 0FC-2114.01)




                   Accounting Entries and Data Processing
                   for the FY 1999 Department of the Navy
                      General Fund Financial Statements

                                  Executive Summary

Introduction. This is the second report on the FY 1999 Department of the Navy
(Navy) General Fund financial statements. The first report addresses our oversight of
the financial statement audit conducted by the Naval Audit Service and endorses the
Naval Audit Service disclaimer of opinion on the financial statements.

The Chief Financial Officers Act of 1990, as amended by the Federal Financial
Management Act of 1994, requires the Inspector General, DoD, to audit the financial
statements of DoD organizations in accordance with generally accepted Government
auditing standards, but allows for the delegation of audit work. The Inspector General,
DoD, delegated the audit of the FY 1999 Navy General Fund financial statements to the
Naval Audit Service. We performed audit work on the compilation of the FY 1999
Navy General Fund financial statements at the Defense Finance and Accounting Service
Cleveland Center, where the Navy accounting records are compiled and financial
statements are prepared. The FY 1999 Navy General Fund reported assets of
$125.9 billion and liabilities of $54.4 billion. The Navy also reported net cost of
operations of $114.1 billion and total outlays of $78.6 billion.

Objective. The objective of the audit was to determine the reliability and effectiveness
of processes and procedures used to prepare the FY 1999 Navy General Fund financial
statements. We reviewed management controls and compliance with laws and
regulations related to the objective.

Results. The Defense Finance and Accounting Service (DFAS) Cleveland Center
processed 14,413 accounting entries, valued at $3.4 trillion, throughout the fiscal year
and at year end to enter or adjust balances reported on feeder systems supporting the
Navy General Fund. However, the Standard Accounting and Reporting System -
Financial and Departmental Reporting allowed 9,348 invalid accounting entries, valued
at approximately $1.5 trillion. Of the remaining accounting entries, 276 entries, valued
at $159 billion, were supported and 4,789 entries, valued at $1.7 trillion, were not
reviewed. As a result, financial data reported on the FY 1999 Navy General Fund
financial statements were unreliable. DFAS Cleveland Center has started to identify
new control procedures for the recording of accounting entries, and we expect to see
improvements in the processing of accounting entries for the FY 2000 Navy General
Fund financial reports. The reason the number and value of the entries was so large
was due in part to the way DFAS Cleveland Center processed financial data for the
Navy. DFAS Cleveland Center uses general ledger accounts and posts Navy financial
data every month and at year-end in preparation for monthly and year-end financial
reporting. The Army and Air Force DFAS centers did not use a similar system.
Because Navy financial data were processed throughout the fiscal year, we included all
accounting entries posted to the Standard Accounting and Reporting System - Financial
and Departmental Reporting as part of our review. For details of the audit results, see
the Finding section of the report. See Appendix A for details on the management
control program.

Summary of Recommendations. We recommend that the Director, DFAS Cleveland
Center, determine why the Standard Accounting and Reporting System - Financial and
Departmental Reporting received incomplete data, develop an action plan to obtain
complete financial data, and establish controls within the Standard Accounting and
Reporting System - Financial and Departmental Reporting to preclude accounting
entries that do not meet generally accepted accounting principles.

Management Comments. The Director, DFAS Cleveland Center, did not provide
comments on a draft of this report. We request that the Director provide comments on
this report by July 7, 2000.




                                           ii
Table of Contents

Executive Summary                            i


Introduction
     Background                             1
     Objective                              2

Finding
     Navy General Fund Accounting Entries   3


Appendixes
     A. Audit Process
          Scope and Methodology              9
          Management Control Program        11
          Prior Coverage                    12
     B. Report Distribution                 13
Background
         Chief Financial Officers Act. This audit was performed in response to Public
         Law 101-576, the “Chief Financial Officers Act of 1990,” November 15, 1990,
         as amended by Public Law 103-356, the “Federal Financial Management Act of
         1994,” October 13, 1994. The Chief Financial Officers Act requires the annual
         preparation and audit of financial statements for trust funds, revolving funds, and
         substantial commercial activities of Executive departments and agencies, as well
         as Government corporations. The Chief Financial Officers Act also requires the
         Inspectors General to audit financial statements in accordance with generally
         accepted Government auditing standards and other standards established by the
         Office of Management and Budget.

         Audit of the FY 1999 Department of the Navy General Fund Financial
         Statements. We delegated the audit of the FY 1999 Department of the Navy1
         (Navy) General Fund financial statements to the Naval Audit Service. This is the
         second report on the FY 1999 Department of the Navy (Navy) General Fund
         financial statements. The first report, Report No. D-2000-081, “Inspector
         General, DoD, Oversight of the Naval Audit Service Audit of the FY 1999
         Department of the Navy General Fund Financial Statements,” February 14, 2000,
         addressed our oversight of the financial statement audit conducted by the Naval
         Audit Service and endorsed the Naval Audit Service disclaimer of opinion. We
         also performed audit work on the processes used to compile the Navy General
         Fund financial statements at the Defense Finance and Accounting Service (DFAS)
         Cleveland Center.

         Role of the Defense Finance and Accounting Service. DFAS Cleveland and
         Kansas City Centers provide finance and accounting support to the Navy and
         Marine Corps, respectively. The Centers maintain departmental accounting
         records and prepare financial statements using data from field organizations.
         DFAS Cleveland Center prepared the Navy General Fund financial statements,
         which included data that DFAS Kansas City Center produced and submitted.

         Navy General Fund Financial Statements. The Navy General Fund financial
         statements consisted of the consolidated balance sheet, consolidating and
         consolidated Statement of Net Cost, consolidating and consolidated Statement of
         Changes in Net Position, combined Statement of Budgetary Resources, and
         combined Statement of Financing, along with the supporting footnotes,
         supplementary schedules, and a management overview. The Navy General Fund
         financial statements reported the following information.

          • The balance sheet reported assets of $125.9 billion and liabilities of
            $54.4 billion.

          • The Statement of Net Cost reported a net cost of operations of $114.1 billion.



1
    The Department of the Navy includes both the Navy and the Marine Corps. However, in this report,
    the term “Navy” will refer to the Department of the Navy, which can include the Marine Corps.



                                                    1
    • The Statement of Changes in Net Position reported an end-of-period net
      position of $71.4 billion.

    • The Statement of Budgetary Resources reported total outlays of $78.6 billion.

    • The Statement of Financing reported financing sources yet to be provided of
      $44 billion.

Objective
   The objective of the audit was to determine the reliability and effectiveness of
   processes and procedures used to prepare the FY 1999 Navy General Fund
   financial statements. We reviewed management controls and compliance with
   laws and regulations related to the objective. Appendix A discusses the audit
   scope and methodology, the DFAS Cleveland Center management control
   program, and prior coverage.




                                         2
            Navy General Fund Accounting Entries
            Approximately $1.5 trillion of the $3.4 trillion in accounting entries that
            DFAS Cleveland Center processed for the Navy General Fund during
            FY 1999 were made to invalid general ledger accounts in the Standard
            Accounting and Reporting System - Financial and Departmental
            Reporting (STARS-FDR) and were therefore unsupported. The
            accounting entries were made because the financial data received from
            feeder systems and other sources were not sufficient to prepare required
            financial reports and STARS-FDR lacked adequate controls to ensure
            that all accounting entries were made in accordance with generally
            accepted accounting principles. As a result, financial data reported in
            the Navy General Fund financial statements were subject to increased
            risk and were unreliable.

Generally Accepted Accounting Principles
   The accounting profession has attempted to develop a set of standards that is
   generally accepted and universally practiced. That effort has resulted in a
   common set of standards called generally accepted accounting principles.

   Double-Entry Accounting. The universally used double-entry system requires
   that equal increases and decreases in the general ledger be recorded for each
   occurrence or event using a two-sided entry with debits equaling credits. A chart
   of accounts lists the accounts and the account numbers, which identify their
   location in the general ledger. Using the double-entry system, accountants verify
   that debits equal credits within the general ledger using a trial balance of the
   general ledger accounts.

   Trial Balances. A trial balance is a list of accounts and their balances at a given
   time. The primary purpose of a trial balance is to prove the mathematical equality
   of the debits and credits. Although a trial balance can uncover errors and is
   useful in the preparation of financial statements, it does not prove that all
   transactions have been recorded or that the general ledger is correct. Numerous
   errors may exist even though the trial balance debits and credits are equal. For
   example, the trial balance may balance when a transaction was not entered, a
   journal entry was entered twice, incorrect or invalid accounts were used when
   making entries, or offsetting errors were made in recording the amount of a
   transaction.

   Within the Government, a complete trial balance should include two separate
   general ledgers: one for proprietary accounts and one for budgetary accounts.
   Although many transactions affect both general ledgers, each general ledger must
   balance. Therefore, transactions to each general ledger must include both a debit
   and a credit.




                                         3
FY 1999 Accounting Entries Processed
         DFAS Cleveland Center processed 14,413 accounting entries, valued at
         $3.4 trillion, throughout the fiscal year and at year-end to enter or adjust balances
         reported on feeder systems supporting the Navy General Fund: 14,325 were
         processed throughout the fiscal year in STARS-FDR, 81 were off-line entries to
         the financial statements, and 7 were for eliminating entries. Of the 14,413
         accounting entries, 9,348, valued at approximately $1.5 trillion, were made in
         STARS-FDR and were invalid accounting entries.2

         Magnitude of Accounting Entries. The reason the number and value of the
         entries was so large was due in part to the way DFAS Cleveland Center processed
         financial data for the Navy. DFAS Cleveland Center uses general ledger accounts
         and posts Navy financial data every month and at year-end in preparation for
         monthly and year-end financial reporting. The Army and Air Force DFAS
         centers did not use a similar system. The use of general ledger accounts is an
         essential accounting control technique, and we commend the Navy and DFAS
         Cleveland Center for their efforts. However, DFAS Cleveland Center needs to
         improve its processing of financial data using the general ledger accounts.
         Because Navy financial data are processed throughout the fiscal year, we included
         all accounting entries posted to the STARS-FDR system as part of our review.

         Accounting Entries Processed in STARS-FDR. Of the 14,325 accounting
         entries with an absolute value of $3.2 trillion processed into STARS-FDR,
         9,348 entries, totaling approximately $1.5 trillion, were made to invalid accounts.
         The entries were invalid because DFAS Cleveland Center posted at least part of
         the transaction to one of two pseudo or invalid general ledger accounts:

                    •    “4999.9999 - Budgetary Adjustment Account” and

                    •    “7000.9999 – General Fund (Adjustment Account).”

         Although the pseudo accounts were listed on the chart of accounts for
         STARS-FDR, they are invalid general ledger accounts because the account
         balances neither post to a summary account nor were the account balances used in
         preparing the financial reports. Essentially, the amounts charged to the invalid
         accounts were “forced-entry” amounts used to make accounting entries appear to
         be double-entry transactions. The recording of accounting entries that do not
         follow generally accepted accounting principles affected the quality of the
         financial data contained in STARS-FDR and the reliability of the financial reports
         subsequently produced from the financial data. DFAS Cleveland Center used
         financial and departmental reports that STARS-FDR produced to prepare financial
         statements.




2
    Of the remaining entries, 276 entries, valued at $159 billion, were supported, and we did not review
    4,789 entries, valued at $1.7 trillion.

                                                       4
           Table 1 shows examples of three entries in STARS-FDR with amounts charged to
           invalid accounts.

                        Table 1. STARS-FDR Entries to Invalid Accounts
                    General Ledger                                                       Effect on
Appropriation                               Debit Amount         Credit Amount
                       Account                                                         the Account
       1105             4550.2110                                    $2,574,000.00         Decrease
                        4811.1100            $1,782,000.00                                 Decrease
                        4999.9999            $8,396,000.00                                 Decrease
                        4550.2100                                    $7,604,000.00         Decrease

       1804             4999.9999       $1,984,266,462.34                                  Decrease
                        4561.1000                              $1,984,266,462.34           Increase

       3980             3100.1100       $5,669,093,148.95                                  Decrease
                        7000.9999                              $5,669,093,148.95           Increase


           In the examples, debits and credits equal, but at least one side of each entry was
           posted to 4999.9999 or 7000.9999, the invalid accounts. The explanations shown
           on the journal vouchers for the entries, respectively, were as follows:

                    •    to adjust 10023,

                    •    to adjust budgetary resource balance, and

                    •    to adjust incorrect posting to 3100.1100.

           DFAS Cleveland Center also prepared journal vouchers that included entries for
           which both sides of the entries were made to the invalid accounts. The
           explanations shown for the journal vouchers were to clear an amount from a
           particular account. For example, one journal voucher decreased general ledger
           budgetary account 4999.999 by $18.4 million and increased general ledger
           proprietary account 7000.999 for $18.4 million. In addition to using invalid
           general ledger accounts, the entries were improper because budgetary accounts
           and proprietary accounts are each required to balance. Making a one-sided
           adjustment to the accounts will keep the general ledger from balancing.

           DFAS Cleveland Center stated that the entries to pseudo accounts were not used
           to generate reports. Only data charged to valid accounts, which were supported
           by field systems or other sources, were used. However, the improper adjustments
           made in STARS-FDR question the quality of the system as well as the
           effectiveness of management controls over the processing of financial data. When
           recording an accounting entry, each account being used should be a valid general
           ledger account recognized in the chart of accounts. By using invalid accounts,
  3
      DD Form COMP(M) 1002, “Appropriation Status by FY Program and Subaccounts” report.



                                                   5
     only one side of an entry is truly recognized when applied to the general ledger,
     the side posted to the valid general ledger account. In effect, such entries are one-
     sided and violate generally accepted accounting principles for double-entry
     accounting.


Controls Over Financial Data in STARS-FDR
     DFAS accountants stated that the financial data received in STARS-FDR were not
     sufficient to prepare the required financial reports. However, the manual
     accounting entries made to compensate for the insufficient financial data did not
     follow accounting principles, as evidenced by the 9,348 entries posted to invalid
     general ledger accounts. Table 2 provides two examples of the typical manual
     accounting entries that DFAS Cleveland Center used to enter data into
     STARS-FDR to compensate for insufficient data.

    Table 2. Examples of Invalid Entries Made to Enter Data Into STARS-FDR
                   General                                                       Effect on
Appropriation      Ledger          Debit Amount           Credit Amount        the Account
                   Account
    11051         4561.1000        $529,856,350.92                              Decrease
                  4999.9999                               $529,856,350.92       Increase

    18102         4999.9999      $2,127,942,000.00                              Decrease
                  4561.1000                             $2,127,942,000.00       Increase

1
 Entry is typical of manual entries that entered Marine Corps financial data in
STARS-FDR. Of the 457 entries posted to enter Marine Corps financial data for
appropriation 1105, 339 accounting entries, totaling $34.4 billion, were posted to invalid
general ledger accounts. The comments attached to the accounting entries provided
explanations such as, “rebalance Marine Corps SF 133 data” or “load Marine Corps
disbursements.”
2
 Entry is typical of manual entries to enter unobligated balance data in STARS-FDR.
DFAS Cleveland Center made a total of 189 manual adjustments, valued at $8 billion, to
record unobligated balance data for appropriation 1810. Of those entries, 101 entries,
valued at $6.6 billion, were posted to invalid general ledger accounts. The comments
attached to the accounting entries provided explanations such as, “balance first quarter
unobligated balance amount for SF 133 report” and “adjust unobligated balance.”
Although the obligation balances may have required adjustments to complete the Navy
financial reports, posting such one-sided data to STARS-FDR made the financial reports
unreliable.




                                            6
Reliability of Financial Data
    Entries to correct, complete, or enter original data into STARS-FDR were
    necessary and understandable. However, transactions that post to invalid standard
    general ledger accounts or mix entries between both the proprietary and budgetary
    general ledgers indicate material control weaknesses within STARS-FDR.

    The magnitude of departmental level accounting entries required to compile the
    Navy General Fund financial statements highlights the significant problems that
    DFAS Cleveland Center had producing accurate and reliable financial
    information. The insufficient financial data together with the invalid accounting
    entries demonstrates that STARS-FDR did not have the controls necessary to
    adequately process financial data, produce accurate financial reports, and
    eliminate the high risk of material misstatement on the financial statements.
    Without adequate controls over the financial data in STARS-FDR, the Navy
    General Fund financial statements were unreliable. As a result, we could not rely
    on the data used to prepare those financial statements and disclaimed an audit
    opinion.

Recommendations
    We recommend that the Director, Defense Finance and Accounting Service
    Cleveland Center:

                1. Determine why the Standard Accounting and Reporting System –
     Financial and Departmental Reporting received incomplete data that required
     accounting entries to adjust the financial data for departmental reports.

                2. Develop an action plan to obtain the complete financial data
     necessary to produce accurate departmental reports and General Fund financial
     statements.

                 3. Establish controls within the Standard Accounting and Reporting
     System – Financial and Departmental Reporting to preclude posting accounting
     entries that do not meet generally accepted accounting principles, including
     program edits that:

                a. reject incomplete data from outside sources,

                b. require entries to balance debits and credits,

                c. require entries to balance within each general ledger -- budgetary
                   and proprietary, and

                d. limit entries to valid general ledger accounts.




                                         7
Management Comments Required
   The Director, Defense Finance and Accounting Service Cleveland Center, did not
   provide comments on a draft of the report. We request that the Director provide
   comments on the final report.




                                       8
Appendix A. Audit Process

Scope and Methodology
   Work Performed. We examined the process that DFAS Cleveland Center used
   to consolidate financial data. The data that DFAS Cleveland Center compiled
   were used to prepare the initial version of the Navy General Fund financial
   statements, submitted to auditors on December 23, 1999. DFAS Cleveland
   Center prepared the five required financial statements and the related footnotes.
   The Navy General Fund financial statements reported the following information.

        •   The balance sheet reported assets of $125.9 billion and liabilities of
            $54.4 billion.

        •   The Statement of Net Cost reported a net cost of operations of
            $114.1 billion.

        •   The Statement of Changes in Net Position reported an end-of-period net
            position of $71.4 billion.

        •   The Statement of Budgetary Resources reported total outlays of
            $78.6 billion.

        •   The Statement of Financing reported financing sources yet to be
            provided of $44 billion.

   We performed a limited review of the compilation processes that DFAS Cleveland
   Center used. Our audit objective was to determine the reliability and effectiveness
   of processes and procedures used to prepare the Navy General Fund financial
   statements. We queried the DFAS Cleveland Center accounting system,
   STARS-FDR, for all accounting entries made during FY 1999 by using the Query
   Management Facility tables. We queried 30 appropriations, which resulted in
   14,325 accounting entries, totaling $3.2 trillion. We queried STARS-FDR for all
   accounting entries made from October 1, 1998, through September 30, 1999.
   Queries were run twice to collect accounting entries, once in July and once in
   November. All temporary journal vouchers were excluded from each run of the
   appropriations. Once completed, each appropriation was saved by appropriation
   number then retrieved using a file transfer protocol. Each individual file was then
   opened in Excel and used for further analysis.

   In FY 1999, DFAS Cleveland Center used the STARS-FDR accounting module to
   enhance accounting for the Navy. DFAS Cleveland Center used STARS-FDR to
   prepare monthly and year-end departmental reports. The departmental reports,
   such as the Standard Form 133, “Report on Budget Execution” and the
   DD Form 725, “Report on Reimbursements,” were the DFAS Cleveland Center
   source of financial data for selected line items on the financial statements. The




                                         9
departmental reports were prepared using financial data from STARS-FDR. We
reviewed the processing of financial data in STARS-FDR. Specifically, we
reviewed the following:

     •   the controls over the preparation of departmental reports using financial
         data,

     •   adjustments made to financial data in STARS-FDR, and

     •   financial data used to compile the Navy General Fund financial
         statements.

DoD-Wide Corporate-Level Government Performance and Results Act Goals.
In response to the Government Performance and Results Act, the Secretary of
Defense annually establishes DoD-wide corporate-level goals, subordinate
performance goals, and performance measures. This report pertains to
achievement of the following goal, subordinate performance goal, and
performance measures:

         FY 2001 DoD Corporate-Level Goal 2: Prepare now for an uncertain
         future by pursuing a focused modernization effort that maintains U.S.
         qualitative superiority in key warfighting capabilities. Transform the
         force by exploiting the Revolution in Military Affairs, and reengineer the
         Department to achieve a 21st century infrastructure. (01-DoD-2)

         FY 2001 Subordinate Performance Goal 2.5: Improve DoD financial
         and information management. (01-DoD-2.5)

         FY 2001 Performance Measure 2.5.1: Reduce the number of
         noncompliant accounting and finance systems. (01-DoD-2.5.1.)

         FY 2001 Performance Measure 2.5.2: Achieve unqualified opinions
         on financial statements. (01-DoD-2.5.2.)

DoD Functional Area Reform Goals. Most major DoD functional areas have
also established performance improvement reform objectives and goals. This
report pertains to achievement of the following functional area objective and goal.

         Financial Management Area. Objective: Strengthen internal controls.
         Goal: Improve compliance with the Federal Managers’ Financial
         Integrity Act. (FM-5.3)

General Accounting Office High-Risk Area. The General Accounting Office
has identified several high-risk areas in DoD. This report provides coverage of
the Defense Financial Management high-risk area.

Audit Type, Period, and Standards. We performed this financial statement
audit from October 27, 1999, through April 6, 2000, in accordance with auditing
standards issued by the Comptroller General of the United States, as implemented
by the Inspector General, DoD. Accordingly, we included tests of management
controls considered necessary.


                                     10
   Computer-Processed Data. We could not rely on computer-processed data from
   STARS-FDR used to prepare financial reports and the Navy General Fund
   financial statements. The systems supporting the Navy were unreliable.
   Unreliable computer-processed data were used in preparing the departmental
   entries, the financial statements, and this audit report because they were the only
   data available. We continue to review the adequacy of the systems supporting the
   Navy financial reporting requirements.

   Contacts During the Audit. We visited or contacted organizations in the DoD.
   Further details are available on request.


Management Control Program
   DoD Directive 5010.38, “Management Control (MC) Program,” August 26,
   1996, requires DoD organizations to implement a comprehensive system of
   management controls that provides reasonable assurance that programs are
   operating as intended and to evaluate the adequacy of the controls.

   Scope of Review of the Management Control Program. We evaluated
   management controls over the DFAS Cleveland Center processes and procedures
   for consolidating financial data from field activities and other sources for
   preparation of the Navy General Fund financial statements. Specifically, we
   reviewed controls over processing financial data in STARS-FDR and the
   preparation of financial reports in STARS-FDR. We reviewed management’s
   self-evaluation applicable to those controls.

   Adequacy of Management Controls. We identified material management
   control weaknesses at DFAS Cleveland Center, as defined by DoD Instruction
   5010.40, “Management Control (MC) Program Procedures,” August 28, 1996.
   STARS-FDR did not have the controls necessary to adequately process financial
   data or produce accurate financial reports. Recommendation 3., if implemented,
   will improve the financial data in STARS-FDR and the financial reports prepared
   in STARS-FDR. A copy of this report will be provided to the senior official
   responsible for management controls at DFAS Cleveland Center.

   Adequacy of Management’s Self-Evaluation. Managers at the DFAS Cleveland
   Center did not identify STARS-FDR as an assessable unit; therefore, DFAS
   Cleveland Center did not identify or report the material management control
   weaknesses identified by the audit.

   Uncorrected Material Weakness Identified in FY 1995. The FY 1999 Annual
   Statement of Assurance, prepared at DFAS Cleveland Center, presents the
   following summary of Material Weakness No. 95-028, “Strengthen and Improve
   Support of Accounting Operations at DFAS Cleveland Center.”
                DFAS Cleveland Center …documented known deficiencies in the
                accounting processes supporting the Department of the Navy.
                Systems and processes are not being fully compliant with regulatory
                and statutory requirements, and cannot produce fully auditable
                financial statements. In turn, financial information and statements do


                                             11
               not adequately assist with the management functions of budget
               formulation, budget execution, proprietary accounting and financial
               reporting with a high degree of reliability and confidence.

   The uncorrected weakness had been assigned a targeted correction date of
   FY 2000. Although standard operating procedures were in place for FY 1999
   financial reporting, according to DFAS Cleveland Center, additional procedures
   must be developed to cover monthly, quarterly, and annual reporting.

Prior Coverage
   The General Accounting Office; the Inspector General, DoD; and the Naval Audit
   Service have conducted multiple reviews related to financial statement issues.
   General Accounting Office reports can be accessed on the Internet at
   http://www.gao.gov. Inspector General, DoD, reports can be accessed on the
   Internet at http://www.dodig.osd.mil. Naval Audit Service reports can be
   accessed on the Internet at http://www.hq.navy.mil/navalaudit.




                                          12
Appendix B. Report Distribution

Office of the Secretary of Defense
Under Secretary of Defense (Comptroller)
  Deputy Chief Financial Officer
  Deputy Comptroller (Program/Budget)
Director, Defense Logistics Studies Information Exchange

Department of the Army
Auditor General, Department of the Army

Department of the Navy
Assistant Secretary of the Navy (Financial Management and Comptroller)
Naval Inspector General
Auditor General, Department of the Navy

Department of the Air Force
Assistant Secretary of the Air Force (Financial Management and Comptroller)
Auditor General, Department of the Air Force

Other Defense Organizations
Director, Defense Contract Audit Agency
Director, Defense Finance and Accounting Service
  Director, Defense Finance and Accounting Service Cleveland Center
  Director, Defense Finance and Accounting Service Kansas City Center
Director, Defense Logistics Agency
Director, National Security Agency
   Inspector General, National Security Agency
Inspector General, Defense Intelligence Agency

Non-Defense Federal Organizations
Office of Management and Budget
General Accounting Office
  National Security and International Affairs Division
      Technical Information Center




                                          13
Congressional Committees and Subcommittees, Chairman and
  Ranking Minority Member
Senate Committee on Appropriations
Senate Subcommittee on Defense, Committee on Appropriations
Senate Committee on Armed Services
Senate Committee on Governmental Affairs
House Committee on Appropriations
House Subcommittee on Defense, Committee on Appropriations
House Committee on Armed Services
House Committee on Government Reform
House Subcommittee on Government Management, Information, and Technology,
  Committee on Government Reform
House Subcommittee on National Security, Veterans Affairs, and International
  Relations, Committee on Government Reform




                                       14
Audit Team Members
   The Finance and Accounting Directorate, Office of the Assistant Inspector
   General for Auditing, DoD, prepared this report.


   F. Jay Lane
   Salvatore D. Guli
   Brian M. Flynn
   Marvin L. Peek
   Linda A. Pierce
   Edward A. Blair
   Modupe M. Akinsika
   Kathleen M. Howarth
